Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




   SURETY BONDS REMAIN AN
   UNDERUTILIZED TOOL TO
   PROTECT MEDICARE FROM
   SUPPLIER OVERPAYMENTS




                    Daniel R. Levinson
                     Inspector General

                      March 2013
                     OEI-03-11-00350
EXECUTIVE SUMMARY: SURETY BONDS REMAIN AN UNDERUTILIZED
TOOL TO PROTECT MEDICARE FROM SUPPLIER OVERPAYMENTS
OEI-03-11-00350

WHY WE DID THIS STUDY

In 2009, the Centers for Medicare & Medicaid Services (CMS) began to require suppliers
of durable medical equipment, prosthetics, orthotics, and supplies (DMEPOS) to obtain a
minimum of $50,000 in surety bond coverage per location. A surety bond is issued by an
entity (the surety) guaranteeing that the surety will pay CMS the amount of any monetary
obligations incurred during the term of the bond, and for which the supplier is
responsible, up to the surety’s maximum obligation. Surety bonds can discourage
enrollment of fraudulent suppliers and aid the recovery of debts owed to Medicare. We
set out to determine the extent to which CMS maintains complete and accurate surety
bond data and to determine the amount of supplier debt that could have been recovered
through surety bonds.

HOW WE DID THIS STUDY

We requested from CMS information on all outstanding overpayments that were
identified for collection between October 2, 2009, and April 1, 2011. We also requested
information regarding suppliers’ surety bond coverage and requested CMS’s written
procedures for recovering DMEPOS overpayments through surety bonds.

WHAT WE FOUND

Two years after the surety bond requirement was implemented, CMS did not have
accurate surety bond information for all suppliers. Information for thousands of bonded
suppliers was missing, and surety bond amounts were not consistently maintained by
supplier location. Bonded suppliers have tens of millions in uncollected overpayments.
As of July 2012, CMS reported it collected $263,000 from the millions in overpayments
eligible for surety bond recovery. Most of these overpayments will likely remain
uncollected because a number of suppliers had overpayments of more than $50,000, and
CMS can recover only up to the amount of the surety bond.

WHAT WE RECOMMEND

We recommend that CMS: (1) improve oversight of supplier data to ensure accurate and
consistent information, (2) immediately begin utilizing the surety bond requirement to
recover outstanding overpayments from suppliers’ surety bonds, (3) consider using the
legislative authority given by the Patient Protection and Affordable Care Act of 2010 to
require increased surety bond amounts for suppliers that receive high overall Medicare
payments, and (4) revise collection guidelines to state that collection of debts through
surety bonds is based on dates of service. CMS concurred with all four recommendations.
TABLE OF CONTENTS

         Objectives ....................................................................................................1 

         Background ..................................................................................................1 

         Methodology ................................................................................................7 

         Findings......................................................................................................11

                    Two years after the surety bond requirement was implemented, 

                    CMS did not have complete or accurate surety bond information 

                    for all suppliers ..............................................................................11

                    CMS has yet to recover millions of dollars in supplier debt..........12 

         Conclusion and Recommendations ............................................................15 

                    Agency Comments and Office of Inspector General Response.....18 

         Appendix A: Agency Comments ..............................................................20 

         Acknowledgments......................................................................................23 

                  OBJECTIVES
                  To determine:
                  1.	 the extent to which the Centers for Medicare & Medicaid Services
                      (CMS) maintains complete and accurate surety bond information for
                      suppliers of durable medical equipment, prosthetics, orthotics, and
                      supplies (DMEPOS), and
                  2.	 the number of DMEPOS suppliers with overpayment debt, the extent
                      to which these suppliers had surety bond coverage, and the amount of
                      overpayment debt that could have been recovered through surety
                      bonds from October 2009 to April 2011.

                  BACKGROUND
                  Historically, Medicare Part B DMEPOS have been highly vulnerable to
                  fraud and abuse. As early as 1997, the Office of Inspector General (OIG)
                  reported that 1 of every 14 DMEPOS suppliers (suppliers) and 1 of every
                  9 new applicants did not have a required physical address.1 Additionally,
                  41 percent of suppliers failed to meet at least one supplier standard, such as
                  those related to warranties, information for customers, and inventories. A
                  2005 Government Accountability Office (GAO) report concluded that
                  Medicare’s standards for screening suppliers for enrollment were insufficient
                  to prevent illegitimate businesses from enrolling in Medicare.2 In 2007 and
                  2008, OIG conducted unannounced site visits in South Florida and
                  Los Angeles and found that some suppliers visited were not in compliance
                  with basic supplier standards, providing further evidence of the insufficiency
                  of supplier enrollment standards.3
                  CMS has taken steps to improve the supplier enrollment process. For
                  example, CMS has implemented new accreditation and supplier enrollment
                  standards and now requires certain types of suppliers to obtain surety bonds.4
                  A surety bond is a bond issued by an entity (the surety) guaranteeing that a
                  supplier will fulfill an obligation or series of obligations to Medicare. If the
                  obligation is not met, the surety covers losses up to the bond amount.


                  1
                    OIG, Medical Equipment Suppliers: Assuring Legitimacy, OEI-04-96-00240,
                  December 1997. 

                  2
                    GAO, More Effective Screening and Stronger Enrollment Standards Needed for 

                  Medical Equipment Suppliers, GAO-05-656, September 2005.

                  3
                    OIG, South Florida Suppliers’ Compliance with Medicare Standards: Results from 

                  Unannounced Visits, OEI-03-07-00150, March 2007; OIG, Los Angeles County 

                  Suppliers’ Compliance With Medicare Standards: Results From Unannounced Site Visits, 

                  OEI-09-07-00550, February 2008. 

                  4
                    42 CFR §§ 424.57(c)(22), 424.57(c)(24), and 424.57(c)(26).


DMEPOS Surety Bonds Remain an Underutilized Tool (OEI-03-11-00350)                                   1
                  Specifically, the surety bond guarantees that the surety will pay CMS the
                  amount (including accrued interest) of any overpayments, civil monetary
                  penalties, or assessments incurred during the term of the bond and for which
                  the supplier is responsible, up to the surety’s maximum obligation.5
                  Surety Bonds for DMEPOS Suppliers
                  Section 4312(a) of the Balanced Budget Act of 1997, P.L. 105-33, amended
                  section 1834(a) of the Social Security Act to require as a condition of
                  enrollment that DMEPOS suppliers maintain a surety bond of at least
                  $50,000. CMS promulgated a final rule on January 2, 2009, requiring
                  certain DMEPOS suppliers to “furnish CMS with a surety bond.”6 The final
                  rule became effective on March 3, 2009. New suppliers were required to
                  obtain a surety bond by May 4, 2009, while enrolled suppliers had until
                  October 2, 2009, to obtain a surety bond.7
                  According to the final rule, the purpose of the surety bond requirement is to
                  (1) limit Medicare’s risk from fraudulent suppliers; (2) enhance the
                  enrollment process to ensure that only legitimate suppliers are enrolled or
                  remain enrolled; (3) ensure recovery of erroneous payments resulting from
                  fraudulent billing practices; and (4) ensure that beneficiaries receive
                  products and services that are reasonable and necessary from legitimate
                  suppliers.8
                  The final rule provides exemptions from the surety bond requirement for the
                  following types of suppliers:
                  	 government-operated suppliers (if the supplier has provided CMS with a
                     comparable surety bond under State law);
                  	 State-licensed orthotic and prosthetic personnel in private practice
                     making custom-made orthotics and prosthetics (if the business is
                     solely owned and operated by the orthotic and prosthetic personnel, and
                     if the business is billing only for orthotics, prosthetics, and supplies);
                  	 physicians and nonphysician practitioners (if the items are furnished only
                     to the physician or nonphysician practitioner’s own patients as part of the
                     service); and
                  	 physical and occupational therapists in private practice (if the business is
                     solely owned and operated by the physical or occupational therapist,
                     items are furnished only to the therapist’s own patients as part of the



                  5
                    42 CFR § 424.57(d)(5). 

                  6
                    74 Fed. Reg. 166–167 (Jan. 2, 2009). 

                  7
                    42 CFR § 424.57(d)(1). 

                  8
                    74 Fed. Reg. 166–167 (Jan. 2, 2009). 



DMEPOS Surety Bonds Remain an Underutilized Tool (OEI-03-11-00350)                            2
                       service, and the business is billing only for orthotics, prosthetics, and
                       supplies).9
                  All nonexempt suppliers are required to obtain a surety bond from an
                  authorized surety.10 CMS requires nonexempt suppliers to provide surety
                  bond information and documentation upon enrollment. The supplier must
                  submit a copy of the original surety bond with the enrollment application.11
                  The surety bond must be in the amount of at least $50,000 for each assigned
                  National Provider Identifier (NPI) for which the supplier is seeking to
                  acquire Medicare billing privileges.12 A supplier with multiple practice
                  locations must secure a surety bond for each location.13 A supplier has the
                  option of obtaining a single surety bond that encompasses all of its practice
                  locations.14
                  Suppliers against which final adverse actions have been taken are considered
                  to pose a higher than average risk to the program and must obtain an
                  elevated surety bond, at a rate of an additional $50,000 for each final adverse
                  action imposed against them.15 For example, if a supplier’s billing privileges
                  had been revoked or suspended in the preceding 10 years, the supplier would
                  need to secure an elevated surety bond in the amount of $100,000 (i.e., the
                  base amount of $50,000 plus an additional $50,000 because of the final
                  adverse action).
                  Provisions in the Patient Protection and Affordable Care Act of 2010 also
                  give the Secretary of Health and Human Services the authority to increase




                  9
                    42 CFR § 424.57(d)(15)(i). 

                  10
                     42 CFR § 424.57(d)(2). As defined at 42 CFR 424.57(a), the term “authorized surety” 

                  means a surety that has been issued a Certificate of Authority by the U.S. Department of 

                  the Treasury as an acceptable surety on Federal bonds and the certificate has neither

                  expired nor been revoked. 

                  11
                     42 CFR § 424.57(d)(2) and (d)(4); CMS, Medicare Program Integrity Manual, 

                  Pub. No. 100-08, ch. 10, § 21.7(A)(2). 

                  12
                     42 CFR § 424.57(d)(2). 

                  13
                     CMS, Medicare Program Integrity Manual, Pub. No. 100-08, ch. 10, § 21.7(A)(3). 

                  Suppliers generally pay a fee of approximately $1,500 (or 3 percent of the value of a 

                  $50,000 bond) to obtain a bond. 

                  14
                     CMS, Medicare Program Integrity Manual, Pub. No. 100-08, ch. 10, § 21.7(A)(3). 

                  15
                     42 CFR §§ 424.57(a) and (d)(3); CMS, Medicare Program Integrity Manual, 

                  Pub. No. 100-08, ch. 10, § 21.7(A)(3). An adverse legal action includes a 

                  Medicare-imposed revocation of any Medicare billing number; revocation or suspension

                  of a license to provide health care by any State licensing authority; revocation for failure 

                  to meet quality standards; a conviction of a Federal or State felony offense within the last 

                  10 years preceding enrollment, revalidation, or re-enrollment; or an exclusion or

                  debarment from participation in a Federal or State health care program.



DMEPOS Surety Bonds Remain an Underutilized Tool (OEI-03-11-00350)                                           3
                  surety bond requirements for suppliers on the basis of the company’s billing
                  volume.16
                  CMS Contractors
                  Two types of contractors have responsibilities with regard to suppliers:
                  durable medical equipment Medicare administrative contractors (DME
                  MAC) process DMEPOS claims, and the National Supplier Clearinghouse
                  (NSC) oversees supplier enrollment.
                  DME MACs. DME MACs are responsible for processing DMEPOS claims
                  and determining whether those claims are complete and should be paid. In
                  certain instances, improper payments are made to providers, suppliers, or
                  beneficiaries, resulting in underpayments or overpayments. If a DME MAC
                  makes a final determination of an overpayment, it must follow specific
                  procedures when recovering, reporting, and referring overpayments.17 On a
                  monthly basis, DME MACs must submit to CMS a detailed report of all
                  outstanding overpayments and all actions occurring for any overpayment in
                  the preceding month.18
                  NSC. NSC is responsible for overseeing Medicare supplier enrollment.
                  NSC processes all new supplier applications for billing numbers and ensures
                  that enrolled suppliers meet established standards.19 Before granting billing
                  privileges, NSC may conduct an unannounced site visit to determine
                  whether a supplier meets all Medicare supplier standards. NSC is required
                  to perform unannounced site visits for moderate- and high-risk suppliers, but
                  may also conduct unannounced site visits to any supplier. If NSC finds after
                  a site visit that a supplier no longer meets the supplier standards, NSC has
                  the authority to revoke the supplier’s billing privileges.20 Suppliers’ billing
                  privileges also may become inactive. This can happen for a number of
                  reasons, such as voluntary inactivation or failure to submit claims for four
                  consecutive quarters.
                  Additionally, NSC issues letters to suppliers that require elevated surety
                  bond amounts and revocation letters to suppliers that lack required surety
                  bonds. NSC also provides CMS with data on the status of suppliers’ surety
                  bonds and of their accreditation.


                  16
                    The Patient Protection and Affordable Care Act, P.L. 111-148 § 6402(g) (amending
                  Social Security Act, § 1834(a)(16)(B)).
                  17
                     CMS, Durable Medical Equipment Medicare Administrative Contractor: Attachment

                  J-01—Statement of Work Procurement of DME MAC Jurisdictions A & B, §§ 5.4 and 5.5.

                  18
                     Ibid, § 5.3, p. 55. 

                  19
                     CMS, National Supplier Clearinghouse Medicare Administrative Contractor Statement

                  of Work, §§ I.A., I.B., and II.1.14.

                  20
                     42 CFR §§ 424.57(c)(8), 424.517, and 424.518; 76 Fed. Reg. 5862, 5866 (Feb. 2, 

                  2011). 



DMEPOS Surety Bonds Remain an Underutilized Tool (OEI-03-11-00350)                                     4
                  Prior to October 2010, NSC used the Provider Information Management
                  System (PIMS) to store and maintain supplier information. However, in
                  October 2010, NSC transferred supplier information from PIMS to the
                  Provider Enrollment, Chain, and Ownership System (PECOS), so supplier
                  information is now stored in PECOS. PECOS is the repository for all
                  collected and verified health care provider enrollment information, including
                  surety bond information, and provides a single national enrollment record
                  for each provider or supplier.
                  Overpayment Recovery Through Surety Bonds
                  In January 2012, CMS finalized its procedures for recovering, through surety
                  bonds, overpayments made to suppliers. These procedures became effective
                  on February 21, 2012. According to these procedures, DME MACs can
                  make a claim against a surety for the recovery of overpayments related to
                  payments made on or after March 3, 2009.21
                  Debt Collection Procedures. The procedures for collection on surety bonds
                  incorporate the existing collection procedures for all providers in the
                  Medicare Financial Management Manual.22 Under these procedures, once
                  the DME MAC makes a final determination on an overpayment, a first
                  demand letter is sent to the supplier (for overpayments of $10 or more). The
                  first demand letter requests that the supplier refund the overpaid amount,
                  informs the supplier how the DME MAC will recover the overpayment if
                  repayment is not made, explains when interest will begin to accrue, and
                  informs the supplier of the right to request a review or hearing. If the
                  overpayment is not paid in full by the 30th day after the first demand letter is
                  sent to the supplier, interest begins to accrue on the 31st day. 23
                  Once 101 days have passed since the initial demand letter was sent and no
                  payment or partial payment has been received, the DME MAC must attempt
                  to recover the overpayment through the surety bond.24 The DME MAC
                  notifies the surety by letter that the amount of the overpayment (plus any
                  accrued interest) must be paid to CMS within 30 days. The DME MAC can
                  seek repayment only up to the total sum of the surety bond (i.e., $50,000 for
                  most suppliers).25
                  If the surety does not pay the amount of the overpayment within 30 days, the
                  overpayment becomes eligible for debt referral to the Department of the

                  21
                     CMS, Medicare Program Integrity Manual, Pub. No. 100-08, ch. 15, § 15.21.7.1.
                  22
                     CMS, Medicare Program Integrity Manual, Pub. No. 100-08, ch. 15, 

                  § 15.21.7.1(A)(2).

                  23
                     CMS, Medicare Financial Management Manual, Pub. No. 100-06, ch. 4, § 90.2.

                  24
                     CMS, Medicare Program Integrity Manual, Pub. No. 100-08, ch. 15, 

                  § 15.21.7.1(A)(2).

                  25
                     Ibid. 



DMEPOS Surety Bonds Remain an Underutilized Tool (OEI-03-11-00350)                                   5
                  Treasury.26 Once the overpayment debt has been referred and accepted,
                  DME MACs terminate active collection efforts.27
                  Related OIG Studies
                  As stated previously, in 1997 OIG reported that 1 of every 14 suppliers and 1
                  of every 9 new applicants did not have a required physical address.28
                  Additionally, 41 percent of suppliers failed to meet at least one supplier
                  standard, such as those related to warranties, information for customers, and
                  inventories. The report noted that the ease and low expense of acquiring a
                  supplier number facilitated the entry of abusers into Medicare.
                  In 2006, OIG conducted unannounced site visits of 1,581 suppliers in three
                  South Florida counties and found that 31 percent did not maintain physical
                  facilities or were not open and staffed, contrary to Medicare requirements.29
                  In a subsequent report, OIG found that nearly half of 491 South Florida
                  suppliers whose billing privileges had been revoked appealed and received
                  hearings and that hearing officers reinstated the billing privileges of
                  91 percent of these suppliers.30 However, two-thirds of the suppliers whose
                  billing privileges were reinstated had subsequently had these privileges
                  revoked or inactivated, and some individuals connected to suppliers with
                  reinstated billing privileges had been indicted.
                  In 2007, OIG conducted unannounced site visits of suppliers in Los Angeles
                  County and found that 13 percent of the 905 suppliers visited did not
                  maintain a physical facility or were not open and that an additional 9 percent
                  did not meet additional standards.31
                  In a May 2010 report, OIG determined the collection status, as of
                  June 2008, of overpayments—identified by program safeguard contractors—
                  that had been made to South Florida suppliers and referred to claims
                  processors for collection in 2007. OIG found that the collection rate of those
                  overpayments was only 1 percent, compared to a national DMEPOS
                  collection rate of 3 percent.32 Additionally, the report found that Medicare

                  26
                     CMS, Medicare Program Integrity Manual, Pub. No. 100-08, ch. 15,
                  § 15.21.7.1(A)(2). Debts ineligible for referral include those in bankruptcy status, in an
                  appeal status, under a fraud and abuse investigation, or for which the debtor is deceased.
                  27
                     CMS, Medicare Financial Management Manual, Pub. No. 100-06, ch. 4, § 80.2.
                  28
                     OIG, Medical Equipment Suppliers: Assuring Legitimacy, OEI-04-96-00240,

                  December 1997. 

                  29
                     OIG, South Florida Suppliers’ Compliance with Medicare Standards: Results From

                  Unannounced Visits, OEI-03-07-00150, March 2007.
                  30
                     OIG, South Florida Durable Medical Equipment Suppliers: Results of Appeals, 

                  OEI-03-07-00540, October 2008. 

                  31
                     OIG, Los Angeles County Suppliers’ Compliance with Medicare Standards: Results 

                  From Unannounced Site Visits, OEI-09-07-00550, February 2008.

                  32
                     OIG, Collection Rate for Overpayments Made to Medicare Suppliers in South Florida, 

                  OEI-03-09-00570, May 2010. 



DMEPOS Surety Bonds Remain an Underutilized Tool (OEI-03-11-00350)                                        6
                  could have recovered an additional $15 million, or 6 percent, of
                  South Florida DMEPOS overpayment dollars if the surety bond requirement
                  had been in place at the time of the study.
                  In September 2011, OIG issued an early alert memorandum report detailing
                  the early findings of the current study.33 OIG found that CMS had not
                  finalized procedures for recovering DMEPOS overpayments through surety
                  bonds.34 In addition, as of July 2011, no overpayments had been recovered
                  through surety bonds since October 2, 2009, the date the surety bond
                  requirement became effective for all suppliers.

                  METHODOLOGY
                  Scope
                  Our study focused on nonexempt suppliers with overpayments identified
                  between October 2, 2009—the date that all nonexempt suppliers were
                  required to have a surety bond—and April 1, 2011. These overpayments
                  were still outstanding as of August 31, 2011.
                  Data Collection
                  In August 2011, we requested from CMS information on overpayments
                  made to all bonded suppliers. Specifically, we requested information on
                  currently outstanding overpayments made to bonded suppliers that were
                  identified for collection between October 2, 2009, and April 1, 2011 (i.e., an
                  initial demand letter had been sent to the supplier during that timeframe).
                  We defined an outstanding overpayment as the total supplier-owed principal
                  amount of all overpayments not under appeal, minus any adjustments,
                  reductions, or partial payments, for which the supplier was not in active
                  repayment status. We requested the total outstanding overpayment amount,
                  plus accrued interest, for each bonded supplier and supplier location. We
                  requested each supplier’s billing status as of August 31, 2011.
                  In addition to the total overpayment amounts for each bonded supplier, we
                  requested the amount of surety bond coverage for each separate supplier
                  location.
                  In response to our data request, CMS stated that it would be difficult to
                  provide the surety bond information for the specific suppliers with
                  outstanding overpayments because overpayment data and surety bond data
                  are maintained in different database systems. Instead, CMS provided
                  overpayment data from its DME MACs for all suppliers (both exempt and

                  33
                     OIG, Use of Surety Bonds to Recover Overpayments Made to Suppliers of Durable
                  Medical Equipment, Prosthetics, Orthotics, and Supplies: Early Findings,
                  OEI-03-11-00351, September 2011.
                  34
                     CMS subsequently finalized these procedures in January 2012.


DMEPOS Surety Bonds Remain an Underutilized Tool (OEI-03-11-00350)                                   7
                  nonexempt) with outstanding overpayments identified between October 2,
                  2009, and April 1, 2011. CMS provided us with this information at the end
                  of September 2011.
                  Separately, CMS provided surety bond information for all suppliers who
                  were bonded between October 2, 2009, and April 1, 2011. However, OIG
                  identified problems with these data, which caused CMS to have multiple
                  delays in providing updated data to OIG. The final data related to suppliers’
                  surety bonds was not received until July 2012.
                  Data Analysis
                  Overpayment Data. DME MACs provided to OIG information for a total of
                  3,111 suppliers with outstanding overpayments. Because suppliers can bill
                  multiple DME MACs (depending on the beneficiary address), some
                  suppliers appeared in more than one DME MAC’s overpayment information.
                  We combined all overpayments for these suppliers to determine the
                  overpayment amount for each unique supplier NPI. To do this, we verified
                  that each supplier’s NPI, name, address, and billing status were consistent
                  across contractors. We determined that a total of 2,927 unique suppliers had
                  outstanding overpayments identified between October 2, 2009, and April 1,
                  2011.
                  From the overpayment data set, we excluded suppliers that had an
                  overpayment amount of less than $10.35 We also excluded suppliers with
                  billing privileges that were inactive or revoked before October 2, 2009,
                  because they would not be subject to the surety bond requirement.
                  Additionally, we excluded suppliers that CMS reported as exempt or that we
                  determined were likely to be exempt from the surety bond requirement. To
                  determine which suppliers were likely to be exempt, we used the primary
                  specialty code provided by CMS for each nonbonded supplier.36 The total
                  number of suppliers with outstanding overpayments meeting our inclusion
                  criteria was 1,429.



                  35
                     DME MACs do not send a demand letter unless the overpayment is $10 or more
                  (CMS, Medicare Financial Management Manual, Pub. No. 100-06, ch. 4, § 90.2);
                  however, there were a number of identified overpayments in the data set provided by
                  CMS that were under $10.
                  36
                     We considered suppliers with any of the following primary specialty codes to be
                  exempt from the surety bond requirement: physician, physical therapist, medical supply
                  company with orthotic personnel, medical supply company with prosthetic personnel,
                  prosthetic personnel, orthotic personnel, and optician. Suppliers we considered
                  nonexempt included those with the following primary specialty codes: medical supply
                  company, medical supply company with respiratory therapist, home health agency,
                  nursing facility, and pharmacy. We excluded two additional suppliers that did not have
                  specialty codes and had inactive billing privileges but did not have status dates (i.e., we
                  could not determine when they became inactive).


DMEPOS Surety Bonds Remain an Underutilized Tool (OEI-03-11-00350)                                              8
                  Surety Bond Data. In October 2011, CMS provided information for
                  54,695 suppliers that had surety bonds between October 2, 2009, and
                  April 1, 2011. Because we found discrepancies and inconsistencies within
                  this information, we asked CMS to verify it. In December 2011, CMS
                  resubmitted to OIG surety bond information for 82,458 suppliers that had
                  surety bonds between October 2, 2009, and April 1, 2011. From this data
                  set, we combined suppliers with matching NPIs, resulting in a total of
                  77,898 suppliers.
                  Merged Overpayment and Surety Bond Data. To determine how many of the
                  1,429 suppliers with outstanding overpayments also had surety bonds, we
                  matched these suppliers’ NPIs with those of the 77,898 suppliers with surety
                  bonds.37 We determined that 1,117 suppliers had surety bonds.
                  For each of the 1,117 suppliers, we calculated the total amount of
                  outstanding debt (overpayment principal plus accrued interest) and the
                  amount that could have been recovered from surety bonds. From our
                  review of the surety bond data for all 77,898 bonded suppliers, we
                  determined that the surety bond information was not always reported by
                  practice location. Because we could not determine whether records
                  showing surety bond amounts greater than $50,000 reflected elevated
                  bonds (for high-risk suppliers) or were data errors, we calculated possible
                  recovery amounts for each supplier based on a bond amount of $50,000,
                  resulting in a conservative estimate. For the suppliers that owed less than
                  $50,000, we used the amount owed as the amount that CMS could have
                  recovered. For suppliers that owed $50,000 or more, we used $50,000 as
                  the amount CMS could have recovered.
                  We also calculated the total amount of debts for the remaining
                  312 suppliers that lacked surety bonds.
                  Limitations
                  The DME MACs provided suppliers’ aggregated overpayment amounts
                  identified between October 2, 2009, and April 1, 2011. We did not
                  validate any of the overpayment data provided by the DME MACs.
                  Because we do not have information on the dates of individual
                  overpayments, it is possible that some individual overpayments may have
                  been from dates of service prior to surety bond coverage, which would
                  make them ineligible for collection through surety bonds.




                  37
                     For suppliers missing an NPI in the overpayment data set, we used the supplier name
                  and address to determine whether a match existed in the surety bond data set.


DMEPOS Surety Bonds Remain an Underutilized Tool (OEI-03-11-00350)                                         9
                  Standards
                  This study was conducted in accordance with the Quality Standards for
                  Inspection and Evaluation issued by the Council of the Inspectors General
                  on Integrity and Efficiency.




DMEPOS Surety Bonds Remain an Underutilized Tool (OEI-03-11-00350)                       10
                  FINDINGS
                  Two years after the surety bond requirement was
                  implemented, CMS did not have complete or accurate
                  surety bond information for all suppliers
                  Although surety bond coverage has been one of the requirements of supplier
                  enrollment since March 2009, CMS lacked complete or accurate surety
                  bond information for all suppliers as of October 2011. Information for
                  thousands of bonded suppliers was missing, and surety bond amounts were
                  not consistently maintained in PECOS by supplier location.
                  Surety bond data for over 27,000 suppliers were missing from
                  CMS’s provider data system
                  In October 2011, CMS provided OIG with surety bond information for
                  54,695 suppliers, which was extracted from PECOS, the current provider
                  data system. However, a comparison of these suppliers to the
                  CMS-provided list of suppliers with overpayments resulted in very few
                  matches. In November 2011, at our request, CMS reviewed the data and
                  discovered that information for a large number of suppliers was missing
                  from PECOS. CMS determined that errors had occurred during the
                  October 2010 transition of supplier data from the previous data system—
                  PIMS—to the current data system, PECOS. As a result, data for
                  27,763 suppliers had not been transferred from PIMS to PECOS and were
                  thus missing from the initial data received. After discovering this error—
                  2 years after suppliers were required to have bonds—CMS provided OIG
                  with an updated surety bond data set in December 2011 containing
                  82,458 suppliers.
                  CMS did not consistently maintain surety bond amounts by
                  supplier practice location in PECOS, making it difficult to
                  determine whether suppliers complied with the surety bond
                  requirement
                  Suppliers are allowed to obtain one bond to cover multiple practice
                  locations, but each location must have at least $50,000 in coverage.
                  Therefore, a supplier with 10 locations can obtain a single bond in the
                  amount of $500,000 (i.e., $50,000 in coverage for each location).
                  According to the surety bond data that CMS provided, 35 percent of the
                  77,898 supplier locations had surety bond coverage greatly exceeding
                  $50,000 (i.e., bonds over $500,000 per location). Some of these appeared to
                  be cases in which multiple supplier locations were covered under one large
                  bond, but only the overall bond amount—not the location coverage
                  amount—was reported for each location. For example, one supplier had six



DMEPOS Surety Bonds Remain an Underutilized Tool (OEI-03-11-00350)                          11
                  locations, with a surety bond amount reported as $300,000 for each location.
                  Because $300,000 divided by the six locations equals $50,000 in coverage
                  per location, it is likely that this supplier had one $300,000 bond that
                  covered all six locations for $50,000 each.
                  In other cases, the surety bond coverage for specific locations could not be
                  determined. For example, CMS reported that one supplier had 12 locations,
                  each with surety bond coverage reported as $20 million. Even if this were
                  the overall coverage amount, the coverage amount per location would have
                  been approximately $1.7 million.
                  Although suppliers are required to have a higher bond amount if they meet
                  the criteria for having any adverse legal actions imposed against them, CMS
                  staff stated that few suppliers meet this criteria. Therefore, it is likely that
                  bond amounts that greatly exceed $50,000 per supplier location were not
                  accurately listed in CMS’s database.
                  CMS can recover debts only up to the amount of the surety bond coverage
                  for a particular supplier location. Given the inconsistencies mentioned, it
                  would be difficult for CMS to determine from the PECOS data whether a
                  supplier with multiple locations covered under one bond was required to
                  have elevated bonds for any of its locations. According to CMS, if a
                  supplier with multiple locations is required to obtain elevated bond coverage
                  for one location but not the others, a manual search of enrollment records
                  would have to be performed to determine which location has the elevated
                  bond coverage.

                  CMS has yet to recover millions of dollars in supplier
                  debt
                  We calculated the total debts owed by suppliers using the date that
                  overpayments were identified. From the data provided by CMS, we found
                  1,429 suppliers with outstanding overpayments identified between
                  October 2, 2009, and April 1, 2011. As shown in Table 1, these
                  1,429 suppliers owed $70 million to Medicare as of August 31, 2011. We
                  calculated that $50 million of this debt is owed by 1,117 suppliers that had
                  surety bonds. In addition, we calculated that another $20 million is owed by
                  312 suppliers without bonds.
                  CMS did not finalize its guidelines to contractors for the collection of debts
                  through surety bonds until January 2012, more than 2 years after the surety
                  bond requirement was implemented. CMS staff stated that significant
                  personnel changes delayed the finalization of these guidelines. These
                  guidelines specify that recovery through surety bonds applies only to
                  overpayments with payment dates made on or after March 3, 2009.



DMEPOS Surety Bonds Remain an Underutilized Tool (OEI-03-11-00350)                            12
                  Table 1: Medicare Debts Owed by Suppliers as of August 31, 2011

                                                                                 Percentage of
                                                               Number of
                 Surety Bond Coverage                                                Suppliers   Total Medicare Debt
                                                                Suppliers
                                                                                   With Debts


                 Bonded Suppliers                                     1,117             78.2%           $50,090,879


                 Suppliers Without Surety Bonds                         312             21.8%           $20,395,517

                            Suppliers With Billing
                            Privileges Revoked or
                            Inactivated Between 10/3/09                 289
                            and 12/31/09

                            Suppliers With Billing                       22
                            Privileges Revoked or
                            Inactivated After 12/31/09
                                                                             1
                            Nonexempt Suppliers
                            Without Surety Bonds



                    Total                                             1,429             100%            $70,486,396
                  Source: OIG analysis of overpayment and surety bond data




                  In its comments on the draft report, CMS recalculated the debt owed by
                  bonded suppliers using data that included only overpayments with dates of
                  service on or after March 3, 2009. Using dates of service to determine
                  eligible overpayments, CMS found that 1,190 bonded suppliers had a total
                  Medicare debt of $32 million—a difference of $18 million from our
                  calculation. The use of dates of service to calculate the debt is not
                  consistent with CMS’s January 2012 guidelines that apply only to
                  overpayments with payment dates of March 3, 2009 or after. Because a
                  payment can be made months after the date of service, calculations based on
                  dates of service versus dates of payment may differ. Although CMS’s
                  calculations show that $18 million of the total debt calculated by OIG may
                  not be eligible for recovery through surety bonds, this amount would remain
                  an outstanding debt to Medicare.
                  Millions of dollars continue to be owed by suppliers. In its comments on
                  the draft report, CMS reported that as of July 2012, it has recovered
                  $263,000 of the millions in overpayments that it determined were eligible
                  for recovery from surety companies.
                  With a surety bond amount of $50,000, CMS cannot recover all of the
                  overpayments owed by bonded suppliers. Based on our analysis, each of
                  the 1,117 bonded suppliers had at least $50,000 in coverage. Because CMS
                  is able to recover only up to the amount of the surety bond, most
                  ($42 million) of the $50 million owed by bonded suppliers will likely



DMEPOS Surety Bonds Remain an Underutilized Tool (OEI-03-11-00350)                                            13
                  remain uncollected. Ninety-eight suppliers in our analysis had
                  overpayments of more than $50,000; 80 percent of these suppliers owed
                  more than $100,000, and 27 percent owed more than $500,000. One
                  supplier had a total debt of $5 million. For these suppliers, a surety bond of
                  $50,000 would recover only a very small percentage of their debt.38

                  Over $20 million in debt is owed by suppliers without surety bonds; the
                  majority of these suppliers had their billing privileges revoked or inactivated
                  within 3 months after the surety bond requirement date. Of the
                  1,429 suppliers with debts, 312 suppliers did not have surety bonds. As
                  shown in Table 1, these nonbonded suppliers owed $20 million. Most of
                  these suppliers (289) had their billing privileges revoked or inactivated
                  between October 3, 2009, and December 31, 2009. CMS reported that it
                  did not immediately revoke the billing privileges of suppliers that did not
                  have a surety bond by the October 2, 2009, deadline because it needed
                  several weeks to confirm whether suppliers had bonds. Because these
                  312 suppliers did not obtain surety bonds and are no longer actively billing,
                  it is unlikely that their debts will be recovered.




                  38
                    As discussed in the methodology, the overpayments owed by suppliers were identified
                  between October 2, 2009, and April 1, 2011. It is possible that some overpayments
                  identified may not have been for dates of service covered during the term of the bond
                  and, therefore, would not be eligible for collection through the bond.


DMEPOS Surety Bonds Remain an Underutilized Tool (OEI-03-11-00350)                                   14
                  CONCLUSION AND RECOMMENDATIONS
                  Fraud and abuse among DMEPOS suppliers is not a recent challenge for
                  Medicare; the problem of suppliers enrolling in Medicare and billing
                  millions of dollars in fraudulent claims has been well documented for
                  years. Although CMS has made changes to strengthen the enrollment
                  process, including implementing the surety bond requirement, millions of
                  dollars continue to be at risk.
                  Section 4312(a) of the Balanced Budget Act of 1997 requires certain
                  suppliers to obtain a surety bond as a condition of Medicare enrollment.
                  The surety bond requirement is a program integrity tool that is intended to
                  safeguard the enrollment process by discouraging fraudulent providers
                  from enrolling and by providing an additional method to recover debts.
                  However, multiple inaccuracies and inconsistencies within CMS’s surety
                  bond data raise concerns regarding CMS’s ability to promptly and
                  effectively recover debts from surety bonds. Specifically, surety bond
                  amounts for some supplier locations could not be determined because
                  overall bond amounts were reported instead of per-location amounts.
                  Because CMS can recover debts only up to the bond amount, CMS would
                  have difficulty determining the maximum amount that could be recovered
                  from bonds without knowing the coverage amounts for specific supplier
                  locations.
                  The findings in this report also raise concerns about the accuracy of surety
                  bond information in CMS’s PECOS database. A significant number of
                  suppliers were originally missing from PECOS, an error CMS discovered
                  during data collection for this report 2 years after the surety bond
                  requirement was implemented.
                  Between October 2, 2009, and April 1, 2011, CMS’s contractors identified
                  millions in overpayments paid to bonded suppliers. However, as of
                  August 2011, CMS had yet to utilize the surety bond requirement to
                  recover these overpayments. Furthermore, a number of suppliers had
                  overpayments much greater than the $50,000 minimum amount for a
                  surety bond; therefore, only a small percentage of these suppliers’
                  overpayments could be recovered under current surety bond requirements.
                  As of July 2012, CMS reported that they had collected from supplier
                  surety bonds only $263,000 of the millions identified for surety bond
                  recovery. While the OIG and CMS total debt calculations differ, it is clear
                  that tens of millions of dollars in debt remain uncollected from suppliers.
                  By utilizing surety bonds as a program integrity tool, CMS has the
                  potential to recover millions of dollars in overpayments from suppliers.


DMEPOS Surety Bonds Remain an Underutilized Tool (OEI-03-11-00350)                           15
                  To ensure that it is maximizing the effectiveness of this program integrity
                  tool, we recommend that CMS:
                  Improve Oversight of Supplier Data to Ensure Accurate and
                  Consistent Information
                  To efficiently recover debts through surety bonds, CMS needs to ensure
                  (on an ongoing basis) that supplier information maintained in PECOS is
                  accurate, consistent, and accessible. CMS should add new data fields and
                  expand the data functions within PECOS specifically for supplier
                  information. Edits (i.e., data system processes to ensure proper payment
                  of claims) should be established for certain fields to prevent clerical errors.
                  For example, surety bonds in the amounts of $5,000 or $500,000,000 for a
                  single location should be flagged as potential typographical errors for the
                  typical surety bond amount of $50,000. CMS should also create data
                  fields so that both per-location and overall surety bond amounts are
                  available. This will increase efficiency by allowing CMS to quickly
                  obtain the surety bond amount per location, eliminating the need for
                  manual searches, and providing an additional accuracy check.
                  Additionally, because of the systemic issues and data errors revealed
                  throughout our study, CMS should review all surety bond data in PECOS
                  to identify other discrepancies or errors resulting from the transition from
                  PIMS to PECOS.
                  Immediately Begin Utilizing Surety Bonds to Recover Debts
                  From Bonded Suppliers
                  More than 2 years have passed since the surety bond requirement was
                  implemented, yet CMS has not comprehensively used this valuable
                  program integrity tool to recover the millions of dollars owed by suppliers.
                  CMS should immediately begin making claims against sureties for all
                  bonded suppliers with outstanding debts.
                  Consider Using the Legislative Authority Given by the Patient
                  Protection and Affordable Care Act of 2010 To Require
                  Increased Surety Bonds Based on Suppliers’ Billing Volume
                  With a surety bond amount of $50,000, $42 million of the $50 million in
                  total debt owed by bonded suppliers may remain uncollected because a
                  number of suppliers had outstanding overpayments much greater than
                  $50,000. Provisions in the Patient Protection and Affordable Care Act
                  give the Secretary of Health and Human Services the authority to increase
                  surety bond amounts for suppliers based on the billing volume of the
                  company. To provide CMS with the ability to recoup a higher percentage
                  of overpayments made to suppliers, CMS should consider increasing



DMEPOS Surety Bonds Remain an Underutilized Tool (OEI-03-11-00350)                            16
                  surety bond amounts above $50,000 for suppliers with high overall
                  Medicare payments.
                  Revise Collection Guidelines to State That Collection of Debts
                  Through Surety Bonds is Based on Dates of Service
                  The collection guidelines, which were finalized in January 2012, state that
                  a surety is liable for overpayments related to payments made on or after
                  March 3, 2009. However, in calculating the total debt owed by bonded
                  suppliers in response to the OIG draft report, CMS used overpayments
                  related to claims with dates of service—not payment dates—after
                  March 2009. Therefore, we recommend that CMS revise the collection
                  guidelines to state that a surety is liable for overpayments related to
                  payments made for claims with dates of service on or after March 3, 2009.




DMEPOS Surety Bonds Remain an Underutilized Tool (OEI-03-11-00350)                         17
                  AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                  RESPONSE
                  CMS concurred with all four of the report recommendations but disagreed
                  with OIG’s conclusions.
                  Regarding the first recommendation, CMS agreed that there are
                  opportunities for improvement in how surety bond information is captured
                  within PECOS. CMS stated that it will be implementing enhancements to
                  PECOS in 2013 to increase accuracy and tracking of surety bond
                  information.
                  CMS concurred with our second recommendation and has begun
                  collecting overpayments from bonded suppliers. As of July 2012, CMS
                  collected approximately $263,000 from supplier surety bonds. CMS
                  stated that the DME MACs are continuing to make requests for payments
                  from sureties; therefore, it expects more overpayments to be collected as a
                  result.
                  CMS concurred with our third recommendation. CMS is considering
                  issues and options related to a requirement that the DMEPOS surety bond
                  be commensurate with the volume of a supplier’s billing. CMS also is
                  considering the possibility of requiring home health agencies and certain
                  other provider and supplier types to obtain and maintain surety bonds as a
                  condition of enrollment.
                  CMS concurred with our fourth recommendation and will revise the
                  guidelines so they state that surety bond collection is based on the date the
                  service was provided.
                  In its comments to this report, CMS disagreed with OIG’s conclusion that
                  bonded suppliers had overpayments of $50 million. CMS stated that it re-
                  analyzed the data and calculated an overpayment amount of $32 million,
                  not the $50 million calculated by OIG—a difference of $18 million. CMS
                  calculated overpayments using the same criteria as OIG, with the
                  exception of excluding overpayments based on claims with dates of
                  service prior to March 2009.
                  Because the data provided by CMS did not include payment or service
                  dates for individual overpayments, OIG agrees that it is possible that some
                  of the overpayments identified by OIG may relate to claims with dates of
                  service prior to March 2009, making them ineligible for collection through
                  surety bonds. OIG stated this methodological limitation in the draft report
                  to CMS. Additionally, when OIG began data collection, CMS had yet to
                  finalize its guidelines for surety bond collection. While OIG recognizes
                  that $18 million may not be recovered through surety bonds based on


DMEPOS Surety Bonds Remain an Underutilized Tool (OEI-03-11-00350)                           18
                  CMS’s guidelines for surety bond collection that were finalized in January
                  2012, the $18 million would remain an outstanding debt to Medicare.
                  As a result of this study, OIG identified significant problems with surety
                  bond data of which CMS had been unaware. CMS also was not prepared
                  to collect overpayments using surety bonds until 3 years after the surety
                  bond requirement was implemented and has collected a limited amount of
                  overpayments from surety bonds to date. Finally, most of the
                  overpayments for bonded suppliers will likely remain uncollected because
                  a number of the suppliers have overpayments of more than $50,000, and
                  CMS can recover only up to the amount of the bond. CMS stated that it
                  understands the importance of surety bonds as a program integrity tool and
                  is exploring multiple avenues to strengthen this important tool.
                  The full text of CMS’s comments is provided in Appendix A.




DMEPOS Surety Bonds Remain an Underutilized Tool (OEI-03-11-00350)                        19
                          APPENDIX A
                          Agency Comments



      l4~§(1; \' l('~




                            DEPAKIMENT OF HEAL1H & HUMAN SERVICES                                        Centers for Medicare & Medicaid SeNices


                                                                                                         Administrator
                                                                                                         Washington , DC 20201

                        DATE:            MAR 0 4 2013
                        TO: 	           Daniel R. Levinson 

                                        Inspector General 

                                                             /S/
                        FROM: 	        M'ttiilyl'l Tavenner 

                                       Actiilg Admipistrator 


                        SUBJECT: 	 Office oMuspector General (OIG) Draft Report: "Surety Bonds Remain an
                                   Underutilized Tool to Protect Medicare from Supplier Overpayments"
                                   (OEI-03-11-00350)

                        The Centers for Medicare & Medicaid Services (CMS) appreciates the opportunity to review and
                        comment on the OIG draft report entitled, "Surety Bonds Remain an Underutilized Tool to
                        Protect Medicare from Supplier Overpayments." The objectives of the draft report were to
                        determine: 1) the extent to which CMS maintains complete and accurate surety bond
                        information for suppliers of durable medical equipment, prosthetics, orthotics, and supplies
                        (DMEPOS), and 2) identify the number of DMEPOS suppliers with overpayment debt, the
                        extent to which these suppliers had surety bond coverage, and the amount of overpayment debt
                        that could have been recovered through surety bonds since October 2009.

                        Since January 2012, when CMS finalized its contractor guidelines for collection of outstanding
                        obligations from DMEPOS suppliers with surety bonds, CMS has been working to recover
                        overpayment debts from DMEPOS suppliers by asserting claims against the surety companies.
                        As of July 2012, CMS has successfully collected $263,000 from surety companies for DMEPOS
                        supplier debts. In addition, there have been cases where DMEPOS suppliers have repaid
                        overpayments on their own initiative once they become aware CMS referred their debt to the
                        surety company for collection. CMS believes its efforts to collect outstanding obligations from
                        surety companies will continue to spur DMEPOS suppliers to satisfy their Medicare debts.

                        As noted in our technical comments to OIG, we disagreed with OIG's conclusions drawn from
                        the data set utilized in its initial analysis. This is because in its initial request for overpayment
                        data for this report, OIG asked for "information for all DMEPOS supplier overpayments
                        identified between OctoQ.er 2. 2009. and A pril I . 2011, that currently are outstanding."
                        Overpayments identified between October 2, 2009, and April l, 2011, which resulted from
                        payments made prior to March 3, 2009, would not have been subject to collection from the
                        surety .

                        When CMS received the preliminary draft report, we obtained data from all four DME Medicare
                        Administrative Contractors (MACs) and attempted to replicate the original OIG report excluding
                        all overpayments based upon claims with a date of service prior to March 3, 2009. Our analysis
                        indicated I, 190 bonded suppliers had a total Medicare debt (overpayment) of $31,829,604. The
                        OIG has appropriately incorporated those comments into the report.




DMEPOS Surety Bonds Remain an Underutilized Tool (OEI-03-11 -00350)                                                                          20
DMEPOS Surety Bonds Remain an Underutilized Tool (OEI-03-11-00350)   21
DMEPOS Surety Bonds Remain an Underutilized Tool (OEI-03-11-00350)   22
                  ACKNOWLEDGMENTS
                  This report was prepared under the direction of Robert A. Vito, Regional
                  Inspector General for Evaluation and Inspections in the Philadelphia
                  regional office, and Linda M. Ragone, Deputy Regional Inspector General.
                  Maria Schepise Johnson served as the team leader for this study, and
                  Courtney Hilts assisted in conducting the study. Central office staff who
                  provided support include Scott Manley and Christine Moritz.




DMEPOS Surety Bonds Remain an Underutilized Tool (OEI-03-11-00350)                        23
                   Office of Inspector General

                                       http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out through
a nationwide network of audits, investigations, and inspections conducted by the following operating
components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all
50 States and the District of Columbia, OI utilizes its resources by actively coordinating with the
Department of Justice and other Federal, State, and local law enforcement authorities. The investigative
efforts of OI often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
